HHS/OIG, Audit -"Review of Aid to Families with Dependent Children Overpayment Recoveries for the Period July 1, 1996 Through June 30, 2002, Michigan Family Independence Agency, Lansing Michigan,"(A-05-02-00060)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
Review of Aid to Families with Dependent Children Overpayment Recoveries for
the Period July 1, 1996 Through June 30, 2002, Michigan Family Independence
Agency, Lansing Michigan," (A-05-02-00060)
March 18, 2003
Complete
Text of Report is available in PDF format (532 kb). Copies can also be
obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Federal regulations require that
states pursue Aid to Families with Dependent Children overpayments made prior
to October 1, 1996, and make appropriate refunds to the Federal Government.
This final report points out that the State of Michigan had not made such
refunds for overpayments collected ($15.3 million federal share) during the
period July 1, 1996 through June 30, 2002. We recommended a financial adjustment
for the $15.3 million and procedural corrections.